APPENDIX A

FILED: October 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1197
(8:19-cv-00046-PWG)
TOI HORN
Debtor - Appellant
v.

FEDERAL NATIONAL MORTGAGE ASSOCIATION ("Fannie Mae")
Creditor- Appellee
and
STEVEN H. GREENFELD
Trustee- Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district court is
affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

JLa.

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1197

TOI HORN,
Debtor - Appellant,
v.
FEDERAL NATIONAL MORTGAGE ASSOCIATION (“Fannie Mae”),
Creditor - Appellee,
STEVEN H. GREENFELD,
Trustee - Appellee.

Appeal from the United States District Court for the District of Maryland, at Greenbelt.
Paul W. Grimm, District Judge. (8:19-cv-00046-PWG)
Submitted: October 14, 2020

Decided: October 22, 2020

Before AGEE and QUATTLEBAUM, Circuit Judges, and TRAXLER, Senior Circuit
Judge.

Affirmed by unpublished per curiam opinion.

Toi Horn, Appellant Pro Se. Elizabeth Marian Abood-Carroll, Troy, Michigan, Aiyssa
Lynn Szymczyk, ORLANS, PC, Leesburg, Virginia, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

2 a.

PER CURIAM:
Toi Horn appeals the district court’s orders: (1) affirming the bankruptcy court’s
order lifting the automatic stay in Horn’s Chapter 7 proceeding, and (2) denying her motion
to alter or amend the judgment. We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. Horn v. Fed. Nat’l
Mortg. Assoc., No. 8:19-cv-00046-PWG (D. Md. Sept. 27, 2019; Jan. 2, 2020). We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

3 (K
2

FILED: December 1, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1197
(8:19-cv-00046-PWG)
TOI HORN
Debtor - Appellant
v.
FEDERAL NATIONAL MORTGAGE ASSOCIATION ("Fannie Mae")
Creditor- Appellee
and
STEVEN H. GREENFELD
Trustee- Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Agee, Judge Quattlebaum, and
Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor. Clerk

H a.

FILED: December 9, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1197
(8:19-cv-00046-PWG)

TOI HORN
Debtor - Appellant
v.
FEDERAL NATIONAL MORTGAGE ASSOCIATION ("Fannie Mae")
Creditor- Appellee
and
STEVEN H. GREENFELD
Trustee- Appellee

MANDATE
The judgment of this court, entered October 22, 2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

5

CK

/s/Patricia S. Connor, Clerk

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
OFFICE OF THE CLERK
1100 East Main Street, Suite 501
Richmond, Virginia 23219-3517
www.ca4.uscourts.gov
Patricia S. Connor
Clerk

Telephone
804-916-2700

August 10, 2020

JURISDICTIONAL NOTICE - AWAITING
ENTRY OF ORDER UNDER FRAP 4(a)
No. 20-1197,

Toi Horn v. Federal National Mortgage.
8:19-cv-00046-PWG

Review of the district court docket discloses that the district court is considering
relief under Rule 4(a)(4) or (5), thereby suspending proceedings on appeal in this
TSe' Af.?0rd,n®Iy’this appeal wil1 not proceed untiI *e district court has issued its
ruling. The parties
to immediately- inform this office in writing of the
.. are directed
,
district court's ruimg
on the motion and whether they intend to appeal the ruling.
Emily Borneisen, Deputy Clerk
804-916-2704

(o

Case'8:19-cv-00046-PWG Document 55 Filed 08/28/20 Page lot 3

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
6500 CHERRYWOOD LANE
CREENBELT, MARYLAND 20770
(301)344-0670
(301) 344-3910 FAX

CHAMBERS OF
PAUL W. GRIMM
UNITED STATES DISTRICT JUDGE

August 28, 2020
RE: Horn v. Fannie Mae, PWG-19-CV-00046
LETTER ORDER
Dear Parties:
This Letter Order addresses Ms. Toi Horn’s filing titled, “Emergency Notice - To
Request the Court Reverse the Clear Error of Judgment,” ECF No. 38. For the reasons discussed
below, Ms. Horn’s notice, construed as a motion to amend judgment under Federal Rule of Civil
Procedure 59(e), is denied.
In a previous Order, I summarized the undisputed factual background as follows:
On March 28, 2018, a foreclosure sale was held for the real property known as
10312 Garson Terrace, Lanham, Maryland, 20706 (the “Property”). ECF No. 28
at 3. On May 1, 201 [8], after the foreclosure sale, Horn filed a petition for
bankruptcy relief. Id. The Bankruptcy Court issued an automatic stay of the
foreclosure sale under 11 U.S.C. §362(a). Id. Fannie Mae filed a motion to
terminate the automatic stay for cause under 11 U.S.C. §362(d). ECF No. 28-1.
The Bankruptcy Court notified Horn of the motion to terminate the automatic
stay. ECF No. 28-1 at 6. Horn did not respond to the motion. The Bankruptcy
Court granted Fannie Mae’s motion and terminated the automatic stay.
ECF No. 37 at 1-2.
On January 2, 2019, Ms. Horn filed this case appealing the Bankruptcy Court’s
termination of the automatic stay. ECF No. 1. On September 27, 2019, I issued an Order
dismissing Ms. Horn’s appeal. ECF No. 37. I explained that Ms. Horn failed to designate a
record on appeal and did not provide an intelligible basis for relief. Id. at 2. Moreover, I found
that the Bankruptcy Court’s decision to terminate the stay in accordance with 11 U.S.C. §
362(d)(1) was not an abuse of discretion and was supported by existing caselaw. Id. at 3-4
(citing In re DeSouza, 135 B.R. 793 (Bankr. D. Md. 1991)).
On October 17, 2019, Ms. Horn filed the pending document, titled, “Emergency Notice To Request the Court Reverse the Clear Error of Judgment.” ECF No. 38. I issued a Letter
Order construing this filing as a motion for reconsideration and directing the parties to brief the

To.

Case 8:19-cv-00046-PWG Document 55 Filed 08/28/20 Page 2 of 3

issue. ECFNo. 41. Fannie Mae filed a response. ECF No. 42.1 Ms. Horn then filed several
“notices” and an “affidavit of facts.” ECF Nos. 43, 44, 45.
As best as the Court is able to interpret the filings, Ms. Horn alleges that she spoke with a
Fannie Mae representative on October 10, 2019 and learned that Fannie Mae previously was an
investor in the Property but it no longer had an interest in the property. ECF No. 38 at 1. Based
on this, Ms. Horn states that this case must not be dismissed if Fannie Mae does not actually
have an interest in the property. Id. at 2. Ms. Horn also questions the interests of “Tichi
Property, LLC by Hameedullah Virk,” who purchased the property in the foreclosure sale, and
Orlans PC, Fannie Mae’s counsel. Id. Ms. Horn asks that the Court subpoena Fannie Mae and
Tichi Property, LLC, investigate Orlans PC, reverse its prior judgments regarding the automatic
stay, and lift the lien on the Property. Id.) ECF No. 45.
A party may move to amend a judgment under Rule 59, or for relief from a judgment
under Rule 60. See MLCAuto., LLC v. Town ofSo. Pines, 532 F.3d 269, 277-80 (4th Cir. 2008);
Knott v. Wedgwood, No. DKC-13-2486, 2014 WL 4660811, at *2 (D. Md. Sept. 11, 2014). A
motion to alter or amend judgment that “call[s] into question the correctness of that order” and is
filed within twenty-eight days of the judgment is analyzed under Rule 59(e). See MLC Auto.,
532 F.3d at 277-80; Fed. R. Civ. P. 59(e). Ms. Horn’s motion was filed within twenty-eight
days after entry of judgment. It therefore will be considered as a Motion for Relief from
Judgment under Rule 59(e). See MLCAuto., 532 F.3d at 277-80; Fed. R. Civ. P. 59(e).
Although the text of Rule 59(e) itself does not provide a standard under which a district
court may grant a motion to alter or amend a judgment, the Fourth Circuit previously has
recognized that there are three grounds for amending an earlier judgment: (1) to accommodate
an intervening change in controlling law; (2) to account for new evidence not available at trial; or
(3) to correct a clear error of law or prevent manifest injustice.” Hutchinson v. Staton, 994 F.2d
1076, 1081 (4th Cir. 1993). Rule 59(e) motions “may not be used, however, to raise arguments
which could have been raised prior to the issuance of the judgment, nor may they be used to
argue a case under a novel legal theory that the party had the ability to address in the first
instance.” Pacific Ins. Co. v. Am. Nat’l Fire Ins. Co., 148 F.3d 396, 403 (4th Cir. 1998). In
general, reconsideration of a judgment after its entry' is an extraordinary remedy which should
be used sparingly.” Id.
Ms. Horn fails to meet any of the grounds for this Court to amend its judgment. Ms.
Horn has not identified an intervening change of law or identified any error of law in this Court’s
judgment. And while the Court recognizes that Ms. Horn may consider the foreclosure sale in
question as a manifest injustice, that sale occurred before Ms. Horn’s bankruptcy petition was
filed and for the reasons stated in my prior Order, the Bankruptcy Court’s decision to terminate
the automatic stay of proceedings was not an abuse of discretion and was consistent with prior
caselaw.
At best, Ms. Horn identifies “new evidence” in the form of the alleged telephone call she
had with a representative of Fannie May on October 10, 2019 in which the Fannie Mae
representative stated that Fannie Mae did not have a current interest in the property. But even if
Ms. Horn then appealed my Order dismissing her appeal to the Fourth Circuit. ECF No. 49.
Because Ms. Horn’s motion for reconsideration was still pending, the Fourth Circuit suspended
the appeal before it until this motion is resolved. ECF No. 53.
2

Case 8:19-cv-00046-PWG

Document 55 Filed 08/28/20 Page 3 of 3

this allegation is accepted as true, it hardly is revelatory because at the time of Ms. Horn’s
telephone call, Fannie Mae no longer had an interest in the property because it had sold it to a
third party, all of which was clearly foreseeable as soon as the Bankruptcy Court issued its lift
stay order. Therefore Ms. Horn has not presented any “new evidence” that would constitute
grounds for amending the judgment.
To clarify the record, the Court does recognize a misstatement in its September 27, 2019
Order dismissing Ms. Horn’s appeal. The Court stated:
Fannie Mae argued before the Bankruptcy Court that it purchased the Property in
a foreclosure sale. After the foreclosure sale, but prior to Fannie Mae
recording the deed for the Property, Horn filed this bankruptcy case.
Fannie Mae’s motion requested that the stay be terminated to allow it to
exercise its non-bankruptcy rights under state law, including the right to obtain
ratification of the sale.
ECF No. 37 at 3 (emphasis added). In fact, the Court should have stated that Fannie Mae sold
the property in a foreclosure sale. Based on this misstatement, Ms. Horn believes that Fannie
Mae and Orlans PC perpetrated a fraud on the Court. But this misstatement did not affect the
Court’s analysis of the Bankruptcy Court’s decision to terminate the automatic stay, the key
point of which is that it was not an abuse of discretion to terminate the stay to allow Fannie Mae
to exercise its rights to ratify the sale under state law. Therefore this misstatement did not affect
the Court’s judgment, presents no evidence of fraud, and provides no grounds for relief.
Finally, in two other filings, Ms. Horn states that the Circuit Court for Prince George’s
County never ratified the sale and therefore this Court should dismiss the filings by Fannie Mae
and Orlans PC in this case. See ECF Nos. 43, 44. These issues are not properly before the Court
as part of Ms. Horn’s appeal or motion for reconsideration. See Volvo Constr. Equip. N. Am.,
Inc. v. CLM Equip. Co., 386 F.3d 581, 603 (4th Cir. 2004) (absent exception circumstances,
no new arguments on appeal); Pacific Ins. Co. v. Am. Nat'l Fire Ins. Co., 148 F.3d 396, 403 (4th
Cir. 1998) (no new arguments or novel legal theories in motion for reconsideration that could
have been raised earlier). Therefore the Court does not address these issues.
For the foregoing reasons, Ms. Horn’s motion, ECF No. 38, is denied. Although
informal, this is an Order of Court and will be docketed accordingly. The Clerk will mail a copy
to Ms. Horn.
Sincerely,
IS/
Paul W. Grimm
United States District Judge

Case 8:19-cv-00046-PWG Document 60 Filed 10/13/20 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
CHAMBERS OF
PAUL W. GRIMM

6500 CHERRYWOOD LANE
GREENBELT, MARYLAND 20770
(301) 344-0670
(301) 344-3910 FAX

UNITED STATES DISTRICT JUDGE

October 13,2020
RE: Horn v. Fannie Mae, PWG-19-cv-00046
LETTER ORDER
Dear Parties:
This Letter Order addresses Toi Horn’s letter requesting an extension of time to respond to
my Letter Order of August 28, 2020 (ECF No. 59). Horn’s request will be denied without
prejudice.
On September 4,2020, Horn filed a Notice of Appeal (ECF No. 56) as to my Letter Order
of August 28, 2020 (ECF No. 55), which denied Horn’s “Emergency Notice to Request the Court
Reverse the Clear Error of Judgment” (ECF No. 38). Because Horn has now appealed my letter
order, I do not have authority to revisit the issue. If the Fourth Circuit reverses my decision in the
order that Horn has appealed, Horn will be afforded an opportunity to respond.
For the these reasons, Horn’s motion, ECF No. 59, is denied without prejudice. Although
informal, this is an Order of Court and will be docketed accordingly. The Clerk will mail a copy
to Horn.
Sincerely,
/S/
Paul W. Grimm
United States District Judge

lOa

Case 8:l9-cv-Q0046-PWG Document 65 Filed 11/06/20 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
CHAMBERS OF
PAUL W. GRIMM
UNITED STATES DISTRICT JUDGE

6500 CIIERRYWOOD LANE
GREENBELT. MARYLAND 20770
(301)344-0670
(301) 344-3910 FAX

November 6, 2020
RE: Horn v. Fannie Mae, PWG-19-CV-00046
LETTER ORDER
Dear Parties:
This Letter Order addresses Toi Horn’s filings titled “Response to Letter Order,” ECFNos.
62 and 63. For the reasons discussed below, Ms. Horn’s letters, construed as Motions for Relief
From an Order under Federal Rule of Civil Procedure 60(b)(6), are denied.
On January 2,2019, Ms. Horn filed this case appealing the Bankruptcy Court’s termination
of the automatic stay. ECF No. 1. That termination allowed Fannie Mae to proceed with the
purchase ofthe Property at issue. On September 27,2019,1 issued an Order dismissing Ms. Horn’s
appeal. ECF No. 37. 1 explained that Ms. Horn failed to designate a record on appeal and did not
provide an intelligible basis for relief. Id. at 2.
In that Order dismissing the appeal, I summarized the undisputed factual background as
follows:
On March 28, 2018, a foreclosure sale was held for the real property known as
10312 Garson Terrace, Lanham, Maryland, 20706 (the “Property”). ECF No. 28
at 3. On May 1,2019, afterthe foreclosure sale, Horn filed a petition forbankruptcy
relief. Id. The Bankruptcy Court issued an automatic stay of the foreclosure sale
under 11 U.S.C.§ 362(a). Id. Fannie Mae filed a motion to terminate the automatic
stay for cause under 11 U.S.C. § 362(d). ECF No. 28-1. The Bankruptcy Court
notified Horn of the motion to terminate the automatic stay. ECF No. 28-1 at 6.
Horn did not respond to the motion. The Bankruptcy Court granted Fannie Mae’s
motion and terminated the automatic stay.
ECF No. 37 at 1-2.
On October 17, 2019 Ms. Horn filed a document titled “Emergency Notice - To Request
the Court Reverse the Clear Error of Judgment. ECFNo.38. I issued a Letter Order construing
this filing as a motion for reconsideration and directed the parties to brief the issue. ECF No. 41.
Fannie Mae filed a response, ECF No. 42. Ms. Horn then filed several “notices” and an “affidavit
of facts,” ECF Nos. 43, 44, 45.

II

(X

Case 8:19-cv-00046-PWG Document 65 Filed 11/06/20 Page 2 of 2

On August 28, 2020, I denied Ms. Horn’s motion for reconsideration after finding Ms.
Horn failed to meet any of the grounds for reconsideration set forth in Hutchinson v. Staton, 994
F.2d 1076, 1081 (4th Cir. 1993).1 ECFNo.55 at 2.
On September 22, 2020, Ms. Horn appealed my August 28, 2020 Order to the Fourth
Circuit, requesting that the court give her more time to respond to the Order. ECF No. 56. On
September 29, 2020, while the appeal was pending, Ms. Horn filed with this Court a Motion for
Extension of Time, requesting additional time to respond to the August 28th Order. ECF No. 59.
On October 13,2020,1 denied Ms. Horn’s request because her pending appeal rendered me without
authority to address the issue. ECF No. 60. On October 22, 2020, the Fourth Circuit, in a per
curiam order, affirmed my August 28th Order. ECF No. 61. The Fourth Circuit’s mandate has
yet to issue.
Now, Ms. Horn again requests more time to respond to the August 28th Order, correctly
stating that she filed a motion for extension of time to respond to the Order, ECF No. 59, and also
stating that the Court is denying her the right to respond. ECF Nos. 62, 63. Ms. Horn appears to
suggest it is her Due Process right to respond in this case.
Unfortunately for Ms. Horn, at this stage, she is without an available legal remedy. 1 have
decided, construing her arguments as a pro se party generously, see United States v. Brown, 797
Fed. App’x 85, 89 (4th Cir. 2019), that her appeal in this case is without merit. Every court before
which she has proceeded agrees: the Bankruptcy Court terminated the automatic stay over the
property at issue, allowing Fannie Mae to obtain possession over the property, ECF No. 1-1 at 2;
1 affirmed the Bankruptcy Court’s ruling, ECF No. 37; and the Fourth Circuit affirmed my ruling,
ECF No. 61-2. The Court is unable to conceive of any Due Process theory under which Ms. Horn
would be entitled to relief, even when construing her motion liberally, as the Court is required to
do. Due Process requires that an individual be afforded fair notice and an opportunity to be heatd
when the individual is facing adverse state action. Snider Intern. Corp. v. Town ofForest Heights,
Md., 739 F.3d 140, 146 (4th Cir. 2014). Ms. Horn, having been afforded opportunities to plead
her case before three courts, has surely received adequate Due Process. However, she has failed
to present a prevailing basis for any remedy when it comes to the property at issue.
For the foregoing reasons, Ms. Horn’s motions, ECF Nos. 62 and 63, are denied. Although
informal, this is an Orderof Court and will be docketed accordingly. The Clerk shall mail a copy
to Ms. Horn.
Sincerely,
/S/
Paul W. Grimm
United States District Judge

Those grounds are: ’‘(1) to accommodate an intervening change in controlling law; (2) to
account for new evidence not available at trial; or (3) to correct a clear error of law or prevent
manifest injustice.” Hutchinson v. Staton, 994 F.2d 1076, 1081 (4th Cir. 1993).
2

12.0.

Case 8:19-cv-00046-PWG Document 37 Filed 09/27/19 Page lot 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
*

TOI HORN

*

Appellant,
V.

*

FEDERAL NATIONAL MORTGAGE
ASSOCIATION (“FANNIE MAE”)

*

CASE NO. PWG-19-46

is

Appellee,
*
*

*

*

*

*

*

*

*

*

*

*

is

is

*

MEMORANDUM OPINION AND ORDER
Toi Horn appeals an order terminating an automatic stay of foreclosure proceedings entered
by the United States Bankruptcy Court for the District of Maryland. The termination of the
automatic stay permitted Fannie Mae to proceed with the purchase in a foreclosure sale of real
property in which Horn alleges to have an interest. The appeal is fully briefed,1 though Horn does
not provide any colorable arguments to support her appeal. Because the Bankruptcy Court’s order
terminating the stay was not an abuse of discretion, Horn’s appeal is DISMISSED.
Background
Horn has not designated a record on appeal and has not included an intelligible statement
of facts in her brief, ECF No. 22. The following information is uncontested in Appellee’s brief,
ECF No. 28, and on the docket in the proceedings below transmitted by the Clerk, ECF No. 4. On
March 28,2018, a foreclosure sale was held for the real property known as 10312 Garson Terrace,
Lanham, Maryland, 20706 (the “Property”). ECF No. 28 at 3. On May 1, 2019, after the
i

See ECF Nos. 22, 28. A hearing is not necessary. See Loc. R. 105.6.

13 a.

Case 8:19-cv-00046-PWG Document 37 Filed 09/27/19 Page 2 of 4

foreclosure sale, Horn filed a petition for bankruptcy relief. Id. The Bankruptcy Court issued an
automatic stay of the foreclosure sale under 11 U.S.C. §362(a). Id. Fannie Mae filed a motion to
terminate the automatic stay for cause under 11 U.S.C. §362(d). ECF No. 28-1. The Bankruptcy
Court notified Horn of the motion to terminate the automatic stay. ECF No. 28-1 at 6. Horn did
not respond to the motion. The Bankruptcy Court granted Fannie Mae’s motion and terminated
the automatic stay. ECF No. 1-1.
Horn filed a notice to appeal the Bankruptcy Court’s order terminating the automatic stay
to this Court. ECF No. 1. Horn did not designate a record as required by Federal Rules of
Bankruptcy Procedure Rule 8009. Under Local Rule 404.2, the Clerk designated a partial record
by transmitting the docket sheet. ECF No. 4. Horn filed many notices and affidavits but not an
appellate brief as required by Federal Rules of Bankruptcy Procedure Rule 8018. On March 11,
2019,1 issued a show cause order as to why the appeal should not be dismissed pursuant to Local
. Rule 404.3 for failure to file an appellate brief. ECF No. 17. On April 2, 2019. I issued an order
granting Horn an extension of time to file an appellate brief. ECF No. 21. On April 26, 2019,
Horn filed an appellate brief, titled “Bill of Complaint in Equity Presentment to Void Proceedings
and Jurisdiction.’’ ECF No. 22. On May 29, 2019, Horn filed a notice to amend her brief. ECF
No. 23. 1 granted Horn leave to file an amended brief by June 18, 2019. ECF No. 24. Horn filed
additional notices but did not amend her brief. On July 8, 2019, Fannie Mae filed its brief in
response to Horn’s appellate brief. ECF No. 28.
Discussion
A d istrict court hearing an appeal from the bankruptcy court reviews the bankruptcy court's
findings offact for clear error and legal conclusions de novo. Fed. R. Bankr. P. 8013. “A decision
to lift the automatic stay under section 362 of the [Bankruptcy] Code is within the discretion of

\H

ol

2

Case 8:19-cv-00046-PWG Document 37 Filed 09/27/19 Page 3 of 4

the bankruptcy judge and this decision may be overturned on appeal only for abuse of discretion.”
In re Robbins, 964 F.2d 342, 345 (4th Cir. 1992), as amended (May 27, 1992). “An abuse of
discretion occurs only when the bankruptcy court relies upon clearly erroneous findings of fact or
uses an erroneous legal standard.’' McDow v. Official Comm, of Equity Sec. Holders of Criimi
Mae Inc., 247 B.R. 146, 151 (D. Md. 1999) (citing Westberry v. Gislaved Gummi AB, 178 F.3d
257, 261 (4th Cir.1999). Nonetheless, “[t]his court is obligated to review the record and reasons
offered by the [bankruptcy] court and to reverse if the ‘court has a definite and firm conviction
that the court below committed a clear error of judgment in the conclusion it reached upon a
weighing of the relevant factors.’” Id.
Section 362(d) of the Bankruptcy Code permits courts to terminate an automatic stay for
cause. 11 U.S.C. § 362(d)(1). Courts must make this determination on a case-by-case basis and
“balance potential prejudice to the bankruptcy debtor’s estate against the hardships that will be
incurred by the person seeking relief from the automatic stay if relief is denied.” In re Robbins,
964 F.2d at 345.
Here, Fannie Mae argued before the Bankruptcy Court that it purchased the Property in a
foreclosure sale. After the foreclosure sale, but prior to Fannie Mae recording the deed for the
Property, Horn filed this bankruptcy case. Fannie Mae’s motion requested that the stay be
terminated to allow it to exercise its non-bankruptcy rights under state law, including the right to
obtain ratification of the sale. ECF No. 28-1. Horn did not respond to these arguments. Based on
Fannie Mae s motion, the Bankruptcy Court found that Fannie Mae had established good cause to
lift the stay and allowed it to proceed under applicable non-bankruptcy law to enforce its remedies
with respect to the Property. ECF No. 28-1 at 1-2. Horn has submitted many filings on appeal
but does not offer any intelligible arguments as to why this was an abuse of discretion. Therefore,

\5<k 3

Case 8:19-cv-00046-PWG Document 37 Filed 09/27/19 Page 4 of 4

the record in this case demonstrates that the Bankruptcy Court’s order terminating the stay was not
an abuse of discretion.
Further, the facts of this case are similar to those in In re DeSouza, 135 B.R. 793 (Bankr.
D. Md. 1991). In that case, the creditor was a successful bidder on a foreclosure sale. Id. at 794.
As in this case, the debtor then filed a bankruptcy petition that generated an automatic stay before
the sale was ratified. Id. The court held that under Maryland law, equitable title of the property
had transferred to the creditor while the debtor had legal title, and that “the bankruptcy court has
no power to undo a prefiling foreclosure sale and restore the equitable title to the legal title holder.”
Id. at 795-96. The court then concluded that reuniting legal and equitable title in the hands of the
creditor under state law constituted good cause for lifting the stay. Id. at 797. Like in In re De
Souza, the Bankruptcy Court here found that Fannie Mae established cause to terminate the stay
to exercise its rights under state law to ratify its foreclosure purchase. Therefore, the Bankruptcy
Court’s order terminating the stay was supported by existing case law and was not an abuse of
discretion.
For the foregoing reasons, Horn’s appeal is DISMISSED.
ORDER
Accordingly, it is this 27th day of September, 2019, hereby ORDERED that
1. Horn’s appeal is DISMISSED;
2. The Clerk SHALL CLOSE this case; and
3. The Clerk SHALL MAIL a copy of this Order to Horn.
/S/
Paul W. Grimm
United States District Judge

| (oCk.

4

Entered: September 30, 2019

Signed: September 30,2019

a
37».

§

SO ORDERED

2
O

&

S8

LORI S. SIMPSON
U.S. BANKRUPTCY JUDGE

Information to identify the case:
Debtor 1

Debtor 2
(Spouse, it filing)

Social Security number or ITIN

Toi Horn
First Name

Middle Name

Last Name

First Name

Middle Name

Last Name

xxx-xx-2856

EIN 47-6830466
Social Security number or ITIN
EIN

United States Bankruptcy Court District of Maryland
Case number: 18-15871 LSS

Chapter: 7

Order of Discharge

12/15

IT IS ORDERED: A discharge under 11 U.S.C. § 727 is granted to:
Toi Horn
aka Toi J'vhann Horn

Explanation of Bankruptcy Discharge in a Chapter 7 Case
This order does not close or dismiss the case,
and it does not determine how much money, if
any, the trustee will pay creditors.
Creditors cannot collect discharged debts
This order means that no one may make any
attempt to collect a discharged debt from the
debtors personally. For example, creditors
cannot sue, garnish wages, assert a deficiency,
or otherwise try to collect from the debtors
personally on discharged debts. Creditors cannot
contact the debtors by mail, phone, or otherwise
in any attempt to collect the debt personally.
Creditors who violate this order can be required
to pay debtors damages and attorney's fees.
However, a creditor with a lien may enforce a
claim against the debtors' property subject to that
lien unless the lien was avoided or eliminated.
For example, a creditor may have the right to
foreclose a home mortgage or repossess an
automobile.

Official Form 318

018003

This order does not prevent debtors from paying
any debt voluntarily or from paying reaffirmed
debts according to the reaffirmation agreement.
11 U.S.C. § 524(c), (f).
Most debts are discharged
Most debts are covered by the discharge, but not
all. Generally, a discharge removes the debtors'
personal liability for debts owed before the
debtors' bankruptcy case was filed.
Also, if this case began under a different chapter
of the Bankruptcy Code and was later converted
to chapter 7, debts owed before the conversion
are discharged.
In a case involving community property: Special
rules protect certain community property owned
by the debtor's spouse, even if that spouse did
not file a bankruptcy case.

Order of Discharge

37408018021015

For more information, see page 2 >
page 1

Some debts are not discharged
Examples of debts that are not discharged are:

Also, debts covered by a valid reaffirmation
agreement are not discharged.
In addition, this discharge does not stop
creditors from collecting from anyone else who is
also liable on the debt, such as an insurance
company or a person who cosigned or
guaranteed a loan.

♦ debts that are domestic support
obligations;
♦ debts for most student loans;
♦ debts for most taxes;

This information is only a general summary
of the bankruptcy discharge; some
exceptions exist. Because the law is
complicated, you should consult an
attorney to determine the exact effect of the
discharge in this case.

♦ debts that the bankruptcy court has
decided or will decide are not discharged
in this bankruptcy case;
♦ debts for most fines, penalties,
forfeitures, or criminal restitution
obligations;
♦ some debts which the debtors did not
properly list;
♦ debts for certain types of loans owed to
pension, profit sharing, stock bonus, or
retirement plans; and
♦ debts for death or personal injury caused
by operating a vehicle while intoxicated.

Official Form 318

Order of Discharge

CK
018002

37408018020016

page 2

Entered: December 20th, 2018
Signed: December 20th, 2018

Case-L

3871

Doc 130

Filed 12/20/18

F „a1of3

SO ORDERED

LORI S. SIMPSON
U.S. BANKRUPTCY JUDGE

IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF MARYLAND
Greenbelt Division
IN RE:
Chapter 7
Case No. 18-I5871-LSS

TOI HORN
aka TOI J'VHANN HORN
Debtor
FEDERAL NATIONAL MORTGAGE
ASSOCIATION ("FANNIE MAE")
Movant
v.
TOI HORN
aka TOI J'VHANN HORN
(Debtor)
STEVEN H. GREENFELD
(Trustee)
Respondents

ORDER TERMINATING AUTOMATIC STAY
UPON CONSIDERATION of the Motion for Relief from Automatic Stay (“Motion”),
filed by Federal National Mortgage Association ("Fannie Mae"), regarding property located at
10312 Garson Terrace, Lanham, MD 20706 with a foreclosure sale that was held on March 28,

0,

Casein

5871

Doc 130

Filed 12/20/18

F ^3 2 of 3

2018, and any response thereto, and good cause having been shown, and the court being fully
advised in the premises, it is hereby
ORDERED, that the Motion be, and the same is hereby GRANTED; and it is further
ORDERED that the Automatic Stay imposed by 11 U.S.C. § 362 is terminated
permitting Federal National Mortgage Association ("Fannie Mae ) to exercise its rights under
applicable law against the Property; and Federal National Mortgage Association ("Fannie Mae")
is allowed to enforce the lien of its Deed of Trust as it pertains to the real property located at
10312 Garson Terrace, Lanham, MD 20706 and it is more particularly described as follows;

BEING KNOWN AND DESIGNATED as Lot 14, Block G, m a subdivision known as Glenn
petaw; as per plat thereof recorded among the Land Records of Praice Georges County,
Maryland in Plat Book NLP 154, Plat No* 82*
The improvements thereon being known as 10312 GARSON TERRACE.

which relief shall extend to the purchaser to take such action under state law, as may be
necessary, to obtain possession of the property; and it is further
ORDERED, that Relief from the Automatic Stay is granted allowing Movant to proceed
under applicable non-bankruptcy law to enforce its remedies to obtain possession of the Property
and/or allowing Movant, through its agents, servicers and representatives to contact Debtor
and/or Debtor's counsel to discuss loss mitigation or begin eviction proceedings at its sole
discretion; and it is further
ORDERED, that the Order be binding and effective despite any conversion of this
bankruptcy case to a case under any other chapter of Title 11 of the United States Code.
Copies to:

7.0a

Case "K

j871

Doc 130

Filed 12/20/18

Kathryn Smits
Namrata Loomba
Orlans PC
PO Box 2548
Leesburg, VA 20177
Attorneysfor the Movant
Toi Horn
10312 Garson Terrace
Lanham, MD 20706
Debtor
Estate of Emma M. Horn
10312 Garson Terrace
Lanham, MD 20706
Co Debtor
Steven H. Greenfeld
2600 Tower Oaks Blvd. Suite 103
Rockville, MD 20852
Chapter 7 Trustee
END OF ORDER

CL

F

j 3 of 3

APPENDIX B

• :'T

IN THE CIRCUIT COURT FOR PRINCE GEORGE’S COUNTY, MARYLAND

T|.

JAMES E. CLARKE, et al.
Substitute Trustee/Plaintiffs’,
v.

)
)
)
)
)
)
)
)
)

E & E FAMILY TRUST, et al.
Defendant(s).

CASE NO.: CAEF18-01811

ORDER OF RATIFICATION OF SALE AND REFERRAL TO AUDITOR
The Court having been satisfied that the sale in the above matter was fairly and properly made, pursuant

v

to Maryland Rule 14-305(e), it is this r-=

day of

2020, by the Circuit Court of Prince

George’s County, Maryland
ORDERED, that the sale of real property known as 10312 Garson Terrace, Lanham, MD. 20706
made and reported in this case, shall be, and is hereby, RATIFIED, no cause to the contrary having been shown,
although notice has been given as required by publication; it is further.
ORDERED, that a Substitute Trustee is allowed commissions and expenses that shall be submitted in a
Suggested Account to the Court Auditor within sixty (60) days from the date of this Order; it is further
ORDERED, that should Substitute Trustee fail to file the Suggested Account as ordered by the Court,
a MUST APPEAR hearing shall be set before a judge of the Circuit Court for Prince George’s County, and held
each week thereafter until the Substitute Trustee files the Suggested Account; it is further,
ORDERED, that the Court Auditor shall determine distribution of funds upon the settlement of the
property in the above matter; it is further,
ORDERED, that, upon receipt of that information from the Substitute Trustee(s), the Court Auditor
shall complete an audit of the sale and render an account in accordance with Rule 2-543(e) within thirty (30)
days, unless such time is extended by the Court; and it further,

Ol

.v''.
ORDERED, that a writ of possession shall not occur unless the sale has been ratified, settlement has
occurred, and the deed has been issued.

______ \ h

X/M
/

d.

—:y

Robin D. Gib Brightf Judge \
Circuit Court for Prince Gieorg^’s County, Maryland

Copies to:

James E. Clarke, et al.
P.O. BOX 2548
Leesburg, VA. 20177
E & E Family Trust, el al.
And The Estate of Emma H. Horn
As Surviving Tenant by the Entirety of
Ernest F. Horn
10312 Garson Terrace
Lanham, MD. 20706

cv.

Case 18

.671

Doc 123-2

Filed 11/02/18

,

je 1 of 1

IN THE CIRCUIT COURT FOR PRINCE GEORGE'S COUNTY, MARYLAND
James E. Clarke
Hugh J. Green
Shannon Menapace
Christine M. Drcxel
Brian Thomas
Substitute Trustees
Plaintiffs
V.

E&E Family Trust and The Estate of Emma H. Horn, as
Surviving Tenant by the Entirety of Ernest F. Horn
Defendants)

)
)
)
)
)
)
)
)
)
)

Civil No. CAEFI8-01811

Flle' Stam

Onant^^To:

)
)
)
)
)

TRUSTEES’ REPORT OF SALE
I hereby certify the following:
1. That I am a Substituted Trustee and an authorized seller ofthe subject property, namely 10312
Garson Terrace, Lanham, Maryland 20706.
2. That on March 28,20181 offered for publication the subject property at the Circuit Court for
Prince George's County 14735 Main Strep£Fronbof Duval Wing, Upper Marlboro, Md.
3. That die subject property was sold to Tipit PropafyL LRC by Hanjccdullah Virlc for the sum of
5316,000.00.
4. That this Report of Sale is true and
tte, amPthejssle was fairly made.
I solemnly affirm under die penalties and perjuty that the coYtistlsof the foregoing paper are true to the
best of my knowledge, information, and belief. \
/ \Kvs.

MU'
Substitute TiWei
Orlans PC \
PO Box 2548 \
Leesburg, Virgiruej0177
(703) 777-7101
(703)940-9110
MATL#
Date:

APR 0 0 im

0.

eat
5*-

-o

O

•JO

o
o

9.o
o
C=L
__ a
H*

o
O-*

si

o

w

ro

o

3RD PARTY PURCHASER

0 r-**

c =T
Ct)

> ATLANTIC BONDING COMPANY, INC.

i;

y

1726REISTERSTOWN ROAD /SUITE 212 / HILTON PLAZA/ BALTIMORE, MARYLAND 21208

'"I
V>

TRUSTEES, MORTGAGEES, ATTORNEYS' FORECLOSURE BOND
Bond Ho. 1SG0I4
CASE NO. CAEF18-01811
KNOW ALL MEN EY THESE PRESENTS:
That we, James E. Clarke, Hugh J. Green, Shannon Menapace
Christine M. Drexsl, Brian Thomas, Substitute Trustees
as Principal(s), and ATLANTIC BONDING COMPANY. INC., a Maryland corporation, as surety, authorized
do business in the State of Maryland, are firmly bound unto the State of Maryland, in the full and just sum of
), current money, to be paid to
ic ★ *
($ 25000.00
twenty-five thousand and 00/100 dollars
the State of Maryland, or its certain attorney,- to which payment well and truly to be made and done, we bind
ourselves, each of us, our and each of our Heirs, Successors and Assigns, Executors and Administrators, jointly
and severally, firmly by these presents. Sealed with our seals, and dated 02/01/18
WHEREAS the above Principal(s) mentioned in the proceedings in the case of
James E. Clarke, et.al., Substitute Trustees
vs. E&E Family Trust and the Estate of Emma H. Horn as Surviving Tenant by the Entirety of Ernest F. Horn
by virtue of the power contained in a Deed of
now pending in the Circuit Court for Prince George1s County
Trust or Mortgage or by virtue of a decree of the Honorable Judge of the said Court is/are about to sell
10312 Garso'n Terrace, Lanham, MD 20706
in accordance with said deed, mortgage or decree. Case No. CAEF18-01811
MOW THE CONDITION OF THE ABOVE OBLIGATION IS SUCH, that if the above bounden Principal(s)
do(es) and shall well and faithfully perform the trust reposed in him/them by said Deed of Trust
or that may be reposed in him/them by ar.y future decree or order in the premises, then the above obligation
to be void; otherwise tojbe and remain in full force and virtue^; ■law.

t

7
(Seal)

(Seal)

Brian. Thomas,/Substitute Trustee

(Seal)
Shannon Menapace, Substitute Trustee
»i

Christine M. Drexel, suDstr

Uo

&
ATLANTIC BONDING COMPACT, INjf.

* *1981

Ml

By:
Nancy £».

ig, Vice President

STATE OF MARYLAND, Baltimore County, set:
KNOW ALL MEN BY THESE PRESENTS : That the ATLANTIC BONDING COMPANY, INC., a Corporation of the State of
Maryland, does hereby appoint Nancy L. Oring its attorney-in-fact to make, execute and deliver on its behalf,
as surety, all bonds of any kind, character and description that are or may be required to be filed in'
Courts of Maryland, and it does hereby declare that all such bends signed and executed by its said
attorney-in-fact shall be as binding on it as if they had been duly executed by its propert officers,
power shall remain in full force and effect until duly revoked and written notice thereof given.
Witness the seal of said ATLANTIC BONDING COMPANY, INC. duly affixed by its President and attested
its Assistant Secretary and dated 02/01/18
Witness As to^ll Surety. Signatures

r

ATLANTIC BONDING <(C>MPANY, I^C.

7
s

I HEREBY CERTIFY that the above, is a correct and true copy of

fjL

By:
.he. irigin;

power of attorney.

&**&■*’

(SEAL)V<

1^
- Assistant Secretary

IN THE ORPHANS1 COURT FOR
(OR)

PRINCE GEORGE'S

MARYLAND

BEFORE THE REGISTER OF WILLS FOR
IN THE ESTATE OF:

ESTATE NO. 100174

EMMA M HORN
AMENDED
SCHEDULE -B

Small Estate - Assets and Debts of the Decedent

1.

I have made a diligent search to discover all property and debts of the decedent and set forth below are:
(a) A listing of all real and personal property owned by the decedent, individually or as tenant in common and of any
other property to which the decedent or estate would be entitled, including descriptions, values, and how the values
were determined:

PREVIOUSLY REPORTED $13,890.50
2 VEHICLES/CARE TAKING ACCT PREVIOUSLY REPORTED IS IN TRUST
TOTAL AMOUNT:$0
(b) A listing of all creditors and claimants and the amounts claimed, including secured, contingent and disputed claims:
J.B. JENKINS FUNERAL HOME, INC:$3,341.50

2. Allowable funeral expenses are

$3,341.50

;

statutory family allowances are

$2.00
; and expenses of administration claimed are
$0.00
3. Attached is a List of Interested Persons.
4. After the time for filing claims has expired, subject to the statutory order of priorities, and subject to the resolution of
disputed claims by the parties or the court, I shall (a) pay all proper claims made pursuant to Code, Estates and Trusts
Article, §8-104 in the order of priority set forth in Code, Estates and Trusts Article, §8-105, expenses, and allowances
not previously paid; (b) if necessary, sell property of the estate in order to do so; and (c) distribute the remaining assets
of the estate in accordance with the will or, if none, with the intestacy laws of this State,
I solemnly affirm under the penalties of perjury that the contents of the foregoing document are true to the best of my
knowledge, information and belief.

ID- li- 15
Attorney

i

Or

TOI HORN

Date

Petitioner

Date

Petitioner

Date
Telephone Number (optional)

&

Facsimile Number
E-mail Address
RW1137
Rev. 05/01/2013

2 (oa.

ROWNET
5/2013

IN THE ORPHANS’ COURT FOR PRINCE GEORGE’S COUNTY, MARYLAND
ESTATE OF: EMMA M. HORN

ESTATE NO. 100174

RE: REQUEST TO REOPEN ESTATE & COMPLAINT AGAINST ALLEGED
CREDITORS

AMENDED NOTICE OF HEARING
You are hereby notified that a hearing will be held at the Orphans’ Court for
Prince George’s County, 14735 Main Street, Courtroom# D4010, Upper Marlboro, MD
on FEBRUARY 14, 2019 at 9:30 A.M.
This hearing may be transferred or postponed to a subsequent time.
Further information may be obtained by reviewing the estate file in the Office of the
Register of Wills.

Cereta A. Lee
Register of Wills
Judge Wendy Cartwright
Chief Judge of the Orphans’ Court for Prince George’s County

DUE TO THE UNAVAILABILITY OF THE JUDGE ON JANUARY 24,
2019, THIS MATTER HAS BEEN CONTINUED TO THE ABOVE DATE.
NOTE: FAILURE TO APPEAR AT THE ABOVE SCHEDULED HEARING MAY RESULT IN A CASE
DISMISSAL.
A PARTY WHO REQUIRES A LANGUAGE INTERPRETER MUST FILL OUT A REQUEST FOR
INTERPRETER FORM AND SUBMIT IT TO THE OFFICE OF THE REGISTER OF WILLS NO LESS
THAN 10 DAYS PRIOR TO THE DATE OF THE SCHEDULED EVENT.
REQUESTS FOR A LANGUAGE INTERPRETER FORM SHOULD BE DIRECTED TO THE OFFICE OF
THE REGISTER OF WILLS AT 301 -952-3250.

Z7
RW 1260

(X

7 Industrial Park Drive
Waldorf, Ml) 20602
Phone: (301) 764-2813 l.egal
(301) 764-2800 Main
Mix: (301) 032-4050

10312 GARSON TERR

LANHAM MD 20706
Amonn( Paid : S

Cheek U :

/Vmonnt (o Pay : $9.00

IM,HASH DETACH AND ItKTliltiN I'ITHit l>OHTI()N WIT! I YOUK IM VMKNT. IM.KAXK IN'Cl.tlDK AD ORDER AND ACCOUNT I) OM PAYMENT

Start Date

7/16/2015

Ad# - Trans#

Description

0011386732

P. O. Number

71665A - HORN

limes

1

LnstPale

Amount

7716/2015

$9.00

CERTIFICATION OF PUBLICATION
THIS IS TO CERTIFY THAT THE ANNEXED LEGAL ADVERTISEMENT HAS BEEN PUBLISHED IN
THE The Enquirer-Gazette FOR THE NUMBER OF INSERTIONS INDICATED ABOVE
CHRISTY BAILEY, PUBLISHER

u. 'O 4
By.

■'? " • 0

7'''' "•’••V.’C/*

6
Qd
NOTICE TO CREDITORS - ESTATE OF EMMA M. HORN - 100174

Run Dates

Amount to Pay :

7/16/2015

$9.00

Aiivi'ilr-t’i/( lii'iil Nunn'

liilliiHj Ptuinti

|3ge‘ll
.g 2 a

sfslg

mum
lefi 3§ls|

I
l£i i il llilllll lllltafcll
ii'tU
fillMilL^P
ISlIiPIs pl:16||ll!S!|l«|s?|sl| i3?s|

dSa^B^SirS

3STlx]-§WSfe®

hn

o - S & <dOw

lion's
§| 44

2|.s3£-8■§

ra 2 Ecf ° ®<44 tt S ■*"'-d -S ^ “ S « *Jo*!*, £

4? £ •£ g O.

,§851*8
-gfcggfc.
1 §T3®

0)

bi g£ *&■» gT’.g.g ® ®-s

5 ‘8 "g ° 3 ®

k&O

if
CO

I■a

o
<N

&

d

3 ►> ,« • ^ & r? 9 3 ® §

eiaa *§esHis »*if t$*J«*lilj«g<1sfSIliHi3gJ|jelm fJii|,I|l i U iBfekl

EXHIBIT 1
AFFIDAVIT
TOI HORN v. FEDERAL NATIONAL MORTGAGE ASSOCIATION "FANNIE MAE"

Toi J. Horn, equitable beneficial title holder, states for the record:

1. EmmaM. Horn died in the month of May 2015, see Exhibit A-Death Certificate.

2. The Register of Wills for Prince George's County, Maryland appointed Toi Horn as Personal
Representative for the ESTATE OF EMMA M. HORN under Estate No. 100174 on June 22,2015,
see Exhibit B - CERTIFICATION OF PUBLICATION dated: 7/16/2015.

3. The small estate notice of appointment notice to creditors was published in The Enquirer
Gazette for several weeks to notify all alleged creditors that EMMA M. HORN died on May
15,2015 and an estate was opened under Estate No. 100174.

4. Respondent(s) were notified that Emma M. Horn passed away in May 2015.

5. Respondents(s) were to file a claim, if they believed they had a true claim against the ESTATE OF
EMMA M. HORN, within six (6) months from the date of the decedent's death under Estate No.
100174.
6. Respondent(s) failed to file their claims with the Register of Wills for Prince George's County,
Maryland against the ESTATE OF EMMA M. HORN within six (6) months from the date of the
decedent's death.

7. Respondent(s) failed to follow the rule of law stated under Exhibit B.

8. Respondent(s) never filed a claim against the ESTATE OF EMMA M. HORN because the alleged loan
was fully PAID IN FULL with Bank of America in August 13,2015 see Exhibit C - Notice.
Page 1 of 3 - Affidavit

9. Instead, Respondent(s) continued to harass and threatened Affiant about the ESTATE OF EMMA H.
HORN by sending mail via using die U. S. Postal Service.
10. Before Emma M. Horn died, she had a Deed of Trust, see Exhibit D/D 1/D2- (first, last, and
Exhibit "A" pages of Emma M. Horn's Deed of Trust, dated: April 28,2003) and see Exhibit E Borrower(s) Certifications dated: 4/28/2003 by Emma M. Horn.

11. The Deed of Trust and the Borrower(s) Certification does not agree with Respondent's false
Foreclosure Bond that was filed in the court record under Civil No.: CAEF18-01811, see Exhibit F Foreclosure Bond - dated 02/01/18. Respondents-James E. Clarke, Hugh J. Green, Shannon
Menapace, Christine M. Drexel, and Brian Thomas all claimed under this false/fake Bond that "they"
were the Substitute Trustees of the Estate of Emma H. Horn and E&E FAMILY TRUST.
12. Before Emma M. Horn passed away, she had an original Note dated April 28,2003, see
Exhibit G - Note - dated: April 28,2003. The Note does not agree widi Respondent's false foreclosure
Bond that was filed in the court record under Civil No.: CAEF18-01811 at the Circuit Court for Prince
Georg'es County, Maryland.

13. Emma H. Horn's name is not stated under ExhibitC, D, D1, E, and ExhibitG.
14. Emma H. Horn never lived at 10312 Carson Terrace, Lanham, Maryland 20706.
15. Exhibit F is a false Bond that must be thoroughly investigated for fraud.
16. There is no evidence that Emma H. Horn had a Deed of Trust and a Note with Respondents.
17. Respondents created a false fake estate/trust after Emma M. Horn died.
18. Respondents filed afalse claim at the Circuit Court for Prince George's County, Maryland
and were given Civil Case No. CAEF 18-01811 on January 31,2018 against a false estate namely
the ESTATE OF EMMA H. HORN.
19. E&E FAMILY TRUST currently owns the trust property at issue, see Exhibit H - THIS DEED.

20. E&E FAMILY TRUST do not have a mortgage agreementwith Respondent(s).

21. E&E FAMILY TRUST does not have a loan account with Respondent(s).
22. Toi Horn is not the Personal Representative for the ESTATE OF EMMA H. HORN.

Page 2 of 3 - Affidavit

23. Respondent(s) failed to show the court of record proof of a mortgage agreement with
E&E FAMILY TRUST and die ESTATE OF EMMA M. HORN.
24. Respondent(s) failed to show the court of record proof of a Deed of Trust and Note
with the ESTATE OF EMMA H. HORN.
25. Petitioners have fully discharged all alleged debt under Bankruptcy Chapter 7 Cause No.
18-15871. Civil No. CAEF 18-01811 was fully discharged under this case.
26. Toi J. Horn is heir of the ESTATE OF EMMA M. HORN.
Under penalty of perjury, all statements are true, correct, and complete to the best of Affiant's
knowledge. If Respondents fail to rebut this AFFIDAVIT point for point in writing within 30 days upon
receipt of this instrument, than this AFFIDAVIT stands as true and the Law of this cause.
Date:

ItUAP

y

l5.,' 2oz(

Toi J. Horn, Affiant, equitable beneficial title holder
c/o 10312 Garson Terrace, Lanham, Maryland [20706]

STATE OF MARYLAND

Alt m gC

County of

£

)

15

SUBSCRIBED AND SWORN TO BEFORE ME this
day of February, 2021, Toi J. Horn
personally appeared before me and upon identification to be the real flesh and blood woman whose name
is subscribed in the within instrument.

f
iW-iP

MY

j
1

= 2: COMMISSION :*= 1
:2;
EXPIRES ;V= i

m
TIMOTHY COKEKE
Notary Public - State of Maryland
Prince George’s County
My Commission Expires Mar 17,2021

Notary Public and for said state

/£l 1
MY COMMISSION EXPIRES: ©

Page 3 of 3 - Affidavit

^[E^ mESEHCE o^mmEmmmmMomm lighttoview;

STATE OF MARYLAND

Department of Health and Mental Hygiene
Please Type or

.*
|

I

State of Maryland / Department of Health and Mental Hygiene
Certificate of Death

For
State
Registrar

1-

£

F^[iYi^fflacl?ln^eii^e fnlf.Srnsure All Copies Are Legible.

Reg. No.

1. Decedent's Name (First, Middle, Last)

Emma

Mil

Muriel

2. Date of Death
Month
Day
OCND,

Horn

||U 4. Facility Name Of not institution, give street and number)

a*
i

Doctor's Community Hospital
6. Sex

5. Social Security Number

I

a

$

II

o

fiii
bill

a
©
©
c
3

ii a
? I

8. Date of Birth
(Month. Oay. Year)

uj

bill

10c. City, Town or Location

Maryland

10312 Gaxson Terrace
11. Marita! Status
1 □ Never Married 2 □ Married

©

a

£
o
o
©
ca

Milt£ £
S |Sa §

I'm!

C.

Allen

10312 Garson Terrace, Lanham, Maryland 20706

21. Si

H

5 2L5JI S§

20b. Place of Disposition (Name of
cemetery, crematory or other place)

3 Q Entombment

SO Donation

Date

20c. Location - City orTown, State

i

j

Rjyerdale

l s

c£

Due to (or as a consequence ofl:

Sequentially list conditions, if any,
leading to the cause listed on line a.
03 Enter the UNDERLYING CAUSE
(disease or injury that Initiated the
events resulting in death) LAST.
a

b.

Tl
©

d.

£

<2

< i ii

2

a -g

§S

<
J

£ o

.9w

? f
g
~

L'I

ii #|

\ i II
\ i s*

i 4 3&

!• 1t 1n

"c
.2
JO
^

IF FEMALE:
23b. Was the decedent pregnant
in the last 12 months?

IE

!*!
23d. Date of delivery

2 □ Fetal death

4 □ Pregnant at time of death
._________6 □ Unknown

3 O Ectopic pregnancy
Month

5 □ Other (specify)_________________

Day

Year

23e. Did tobacco use contribute to the c auacof deathTgj
1 □ Yes 2 □ No 3D Probably ^H^nknown ®!.

24a. Was an
autopsy
performed?

E
o
o
(2

? sii* ®

1 □ Yes 2^No
25. Was case referred to medical
examiner?
1 □ Yes 2^No

z □ Accident
3 □ Suicide
4 □ Homicide

0

5

5 O Pending
Investigation
6 □ Could not be
Determined

■S 29a. Certifier

mii

24b. Were autopsy findings availab
prior to completion of cause cfe.l:
death?
i* ®
1 □ Yes 2 □ No
*
sL:

26. Place of Death (Check only one)
Hospital:

Other:

______ 1 □ Inpatient 2^&£R/'Outpatient
28a. Data of injury
'
(Month, Day, Year)

3 □ DOA

|28b. Time of injury
M

4 Q Nursing Home/long Term Care Facility 5 □ Hospice Facility
6 □ Decedent’s home 7 □ Other (Specify)_____________________

28c. Injury at work?
1 □ Yes

28d. Describe how injury occurred

m

2 O No

28e. Place of injury - At home. farm, street factory, office building
etc. (Specify)

28f. Location (Street and Number or Rural Route Number,
City, or Town, Sfafe)

«

Is If -

life
Is®
re

a

m

>

________________________________________

©

5 UJ *
i pi! |
1 jS il

1 □ Live Birth

*D

27. Manpor of Death
©
p2fi^atura!

■

E

Due to (or as a consequence oO:

23c. If yes. outcome of pregnancy

1 □ Yes 3&No 3 D Unknown

1

m

id*

^ Part IL Other significant conditions contributing to death but not resulting in the underlying cause given in Part I.

©

X

*8

Due to (or as a consequence of):

_______________

MS
£•»’ h
0.

Due to (or as a consequence of):

E

g.2 .9

h8

:

Interval Between
Onset and Death

a ■—

©

©

1

Approximate

M»|
immediate Cause (Final disease
or condition resulting in death)

1

:v

Crematory ! 5/29/2015
__________________
Riverdale, Maryland -|22 Namcand Addross oi Facility J. B. Jenkins Funeral Home, Inc. gjK
M00C6 % 7474 Landover Road, Hyattsville, Maryland 20785iM

6 □ Other (Specify)

of Funeral

ms.
23a. Part 1. Enter the clfaln of events - dise
fiqfuries, or complications -that directly caused the death. DO NOT enter terminal events (mode of dying),
such as cardiac amesi. Respiratory arrest, or
rtr^-ular fibriHation, withoutvjA>wing the etiology. DO NOT ABBREVIATE. Enter only one cause on a Ene. Add
additional lines if necessary.

i

!a
m3
if

Regina Ruffin
19b. Mailing Address (Street and Number or Rural Route Number, City orTown, State, Zip Code)

Toi Horn/Daughter_____
4 □ Removal from Slate

g g|a>s

Federal Government

18. Mother's Name Prior to First Marriage (FZrst, Middle, Last)

19a. Informant’s Name/Relationship (Type, Print)

255 Cremation

16b. Kind of Business/Industry

Investigator

20a. Method of Disposition

E =f f c-.

|r %

Specify:

1 □ Yes 2 K No Specify:

16a. Decedent's Usual Occupation
(Give kind of work done during most of working
life. DO NOT use retired)

Bachelor’s Degree

1 Q Burial

14. Race - American Indian,
Black. White, etc.

5 Q Divorced

17. Father's Name (First, Middle. Last)

Willie

3

USA

13. Was Decedent of Hispanic Origin? (Specify Yes or NoIf Yes, specify Cuban, Mexican. Puerto Rican, etc.

££

S’.

%

10g. Citizen of What Country

20706

12. Was Decedent Ever in U.S.
Armed Forces?
1 □ Yes 2]p No

3 □ Married but Separated
4 & Widowed

1 tXYes 2 □ No

lOf. Zip Code

10e. Street and Number

n

fe I?! s-

; ? I
1 I H

£S

10d. Inside City Lkrirtslp

Lanham

Prince George's

>s 15. Decedent's Education
A
(Specify highest level completed)

Sen
t ii*I

\

urn
9t
I: tf

9. Birthplace (State or Foreig)
Country)

Texas

10b. County

s>'

Z'.SSgM jjgj

Prince George's
If Under 24 Hrs.
Mins.
Hours

w

10a. State

sI ff fi
Si
i i !» z
E

•SR!!

!♦!

Yrs.

69

2 iXF

If Under 1 Year
Months
Days

3. Time of Death
,

4c. County of Death

Lanham

7. Ago fin yrs. last UifUtUay)

1 QM

I

VS, T.O\^>

■H

4b. City. Town or Location of Death

Year

J^^ertifying Physician: To the best of my knov/ledge. death occurred at the time, date, place and due to the cause(s) and manner stated.

til
h
%

'JM f i i

fa
! fg
' 22 s ° E

IS | M
D

3 *5

£ I S
-S K .g|

-:!n

Q 11. Marital Status
1 □ Never Married 2 □ Married
<D
3 □ Married but Separated
C
3
4 K Widowed
5 p Divorced

12. vNas Dececen: £.&'
Armed Forces?
1 □ Yes 2]Q No

2

uS

' i s’viz

»--^rncmv: ^ayr

*4

-Agm.*. %», * 4iiT

I

u tea a^wCi'*# w-lir' M-«jr ,!>:*“■ ~ ., ='*1 :“im.«r #m;;

I

I 1

1 □ Yes 2&N0 Spec*1;.

IL

15. Decedent’s Education
(Specify highest /eve/ completed)

a
TJ

•“ flf i £a
HE Hlf oE
f HI. o
f II 1 a)
rf
i2
Ifllll

16a. Decedent’s Usual Occupation
(G/ve kind of work done during most of working
life. DO NOT use retired)

Bachelor's Degree

Investigator

C.

Allen

1 ill |

4 □ Removal from State

20b. Place of Disposition (Name of
cemetery, crematory or other place)

3 □ Entombment

5 □ Donation

6 □ Other (Specify)

Rxvefdale

21. SignatJe of Funeral Servioa License

J ittss

Date

WO6 $

CrfiHl&tOry '5/29/2015

River dale, Maryland

Jenkins

Funeral

Home ,

P

InC .

fi’iiMi
Iff

7474 Landover Road, Hyattsville, Maryland 20785|^

23a. Part 1. Enter the c/ainof events - disea^ffir/iries. or complicatioi^ -^aidirectly caused the death, DO NOT enter terminal events (mode of dying),
such as cardiac arrest, respiratory arrest, or ^ntricular fibrillation, without/flowing the etiology. DO NOT ABBREVIATE. Enter only one cause on a line. Add
'
additional lines if necessary.

X

N

20c. Location - City or Town, State

i

22. Name and Address of Facility J , B .

^lv\Aj-L4.fl

m
¥

10312 Garson Terrace, Lanham, Maryland 20706

Toi Horn/Daughter_____

IS*
1 ?#

* Vi
|,pH

19b. Mailing Address (Street and Number or Rural Route Number, City or Town, State, Zip Code)

20a. Method of Disposition
2X Cremation

Federal Government

Regina Ruffin

CD 19a. Informant’s Name/Relationship (Type, Print)

1 □ Burial

M

18. Mother’s Name Prior to First Marriage (First, Middle, Last)

17. Father's Name (First, Middle, Last)

Willie

16c. f\Vr3 or £'js*"s-st-lncvj*tff

Approximate
Interval Between
Onset and Death

j

\ S*

RTS I
Immediate Cause (Final disease
or condition resulting in death)

fc

s
./iL

•s

I

ll

®

ra |

■s
1
ts

:l|

8

§ 1
s
■S i

fs
C 3
as

s1
.6 * if

£ I fl
fa 1
C 0)
0)0
V)

1?
|
,:D

c3

85

JO tj)

a.^c

Due to (or as a Consequence'S1):

.£ Sequentially list conditions, if any,
E leading to the cause listed on line a.
Q Enter the UNDERLYING CAUSE
UJ (disease or injury that initiated the
events resulting in death) LAST.
75
O
u
fl>
5

;;

m

Due to (or as a consequence of):

f" J

Due to (or as a consequence of):

i
d.
IF FEMALE:
23b. Was the decedent pregnant
in the last 12 months?
1 □ Yes 3|1no 3 □ Unknown

.2
.2
0.

Due to (or as a consequence of):

23c. If yes, outcome of pregnancy
1 □ Live Birth 2 □ Fetal death 3 □ Ectopic pregnancy
4 □ Pregnant at time of death 5 P Other (specify)____
6 □ Unknown

;n

I -tr«i

23d. Date of delivery
Month

Part II. Other significant conditions contributing to death but not resulting in the underlying cause given in Part I.

Day

Year

23e. Did tobacco use contribute to the c
1 □ Yes 2 □ No 3 0 Probably

JZ
TJ

$
Aa

24a. Was an
autopsy
performed?
1 □ Yes 2 J^No

o 1
& ! i Eo
i,? ^ Is
o
a>
:§ *

II

Pj
i^r

of
ofaeaih?^

-"I'M

24b. Were autopsy findings avasa^i ^51
prior to completion of caute of
death?
i; * 1
1 □ Yes 2 Q No

26. Place of Death (Check only one)
CD 25. Was case referred to medical
examiner?
Hospital:
Other: 4 □ Nursing Home/Long Term Care Facility 5 □ Hospice Facility
1 □ Yes 2^No
1 Q Inpatient 2*)i^R/Outpatient 3 □ DOA
_______ 6 □ Decedent’s home 7 □ Other (Specify)
_____
o 27. Manper of Death
28a. Date of injury
‘28b. Time of: injury
28c. Injury at work?
28d. Describe how injury occurred
prfi^atural
CB
('Month,
Day,
Year)
5 □ Pending
£
M
1 P Yes 2 P No
zD Accident
Investigation
*te
3
□
Suicide
6 □ Could not be
tl
28e.
Place
of
injury
At
home,
farm,
street
factory,
office
building
28f. Location (Street and Number or Rural Route Number,
0)
4 □ Homicide
Determined
etc. (Specify)
City, or Town, State)
O

'if £i f^ I £
■C
:!5 i1 § 1
■ :£- I ^ 5 s

•5>
f-t

Hll

■E till

II Hit
"iv

£ c a3

75
■o 29a. Certifier ^Spertlfying Physician: To the best of my knowledge, death occurred at the time, date, place and due to the cause(s) and manner stated.
0)
(Check
z □ Certifying Nurse Practitioner: To the best of my knowledge, death occurred at the time, date, place and due to the cause(s) and manner stated,
5
only one) 3 □ Certifying Physician Assistant: To the best of my knowledge, death occurred at the time, date, place and due to the cause(s) and manner stated.
4 □ Medical Examiner: On the basis of examination and/or investigation, in my opinion, death occurred at the time, date, place and due to the cause(s) and
manner slated^
29b. Signature an^U
29cJLicense number
_
29d. Date signed (Month, Day, Year)

;l
30. Namgjjl8hf1i7trirnrn'?lrpSrson~who completed cause of death (Item 23a) (Type, Print)
fij

I

m
$9'

b.

State 131. Date filed (Monttf, Day, Year)
Registrar

_

0^ 2-6 ft

Ct\o.r YiVlcnX,

32, Registrar’s Signature ~

’

$
brf

1

mii

€
#t£>i

fl
m
m
fe,

_

!

'l^HMH 17 Rev 07-2014

2169683

HEREBY CERTIFY THAT THIS DOCUMENT IS A TRUE COPY OF
'A RECORD ON FILE IN THE DIVISION OF VfTAL RECO
Ms

J-

2£^_2D15

DATE I^UED;

GENEVA G/SPARKS. ST

DO MOt AtXCPT JNiiiTiS ON $l=CUI’iTY PAPER WITH SGAl.
OF ViTAi. RECORDS 0!.EARLY EMBOSSED.

V

I

i

HAY 26 2015

If.a'if

~2jOj\oU>

IS
1
m
m

.V/'^.w’y/iw.vy.v'.*/;'•'(/.*

Si

REGISTRAR

7 Industrial Park Drive
Waldorf, Ml) 21)602
Plume: (301)764-2813 Legal
(301) 764-2800 Main
Fax: (301)932-4059

10312 GARSON TERR

LANHAM MD 20706
Amount Paid : $

Check # :

PLKASK DKTACII AND IlKTURiM UlTLIt 1‘OltTION WITH

Start Date

7/16/2015

Ad# - Trans#

0011386732

Amount to Pay : $9.00

VODIt PAYMENT. PLEASE INCLUBK AD ORDF.lt AND ACCOUNT II ON PAVMKNT

Description

P. O. Number

71665A - HORN

Times

l

LastDate

Amount

7/16/2015

$9.00

CERTIFICATION OF PUBLICATION
THIS IS TO CERTIFY THAT THE ANNEXED LEGAL ADVERTISEMENT HAS BEEN PUBLISHED IN
THE The Enquirer-Gazette FOR THE NUMBER OF INSERTIONS INDICATED ABOVE
CHRISTY BAILEY, PUBLISHER

NOTICE TO CREDITORS - ESTATE OF EMMA M. HORN - 100174

Run Dates

7/16/2015

Amount to Pay :

Bitlinci Petted
go

BS
og
HO
i—i

ill

O

^
t>

lijsjlji !pli

$9.00

Ativmtitoi/Client Nmm

Ilf Hill Jfifi

rH

t>

IIII! illJ !l3l||lIli!ll!l!lll!l|IM IfPflU m|| I!||!ll!|ll|!!
§

ipl ip||

gs
3"
s

s

liii.!

IflliiiilMfllim, 1115? s 1II ti II s .j If| ^ n |4?ij

H eSnS aSsiriIs^Il.r^^llllltlil3!Iiii|i|s|||||sill||||i||||i| gj |fg||

ESRSHORT 16412 07/28/2011

Bankof America
Home Loans
Escrow Department, MSN CA6-919-02-0S
450 American Street
Simi Valley, CA 93065-6298

Notice Date:

August 13, 2015

Loan No.:

028447404

Property Address:
10312 GARSON TERRACE
LANHAM, MD 20706

ESTATE OF EMMA M HORN
10312 GARSON TER
MD 20706
LANHAM

ANNUAL ESCROW ACCOUNT DISCLOSURE STATEMENT
I IMPORTANT MESSAGE ABOUT YOUR HOME LOAN

We are sending you this statement of activity in your escrow account from April 2015 through
August 2015, the date on which your loan was paid in full or transferred to another servicer.
Your monthly mortgage payment since April 2015 was $1,501.76, of which $1,135.58 was for
principal and interest and $366.18 went into your escrow account.
The total amount paid into your escrow account during the period specified above was $366.18
and the total amount paid from your escrow account during that period was $.00. A history of
payments to and from your escrow account is detailed on the following page(s).
WHAT YOU NEED TO DO
If you have questions regarding this notice, please call us at 1-800-669-6607, Monday-Friday
7a.m. to 7p.m. Local Time. We appreciate the opportunity to serve your home loan needs.

•1*1

C
This communication is from Bank of America, N.A., the servicer of your home loan.

Please see the reverse side of this page for important information.
Please write your loan number on all correspondence.

HD MM 13 A Ih 08
CLERK OF THE
CIRCUIT COURT
17358

620

After Recording Ream RICAN
To:
MORTGAGE COMPANY,
UNIVERSAL AM\
p.O. BOX 4929
CLEARWATER, FL

0k>‘ 'll 4^-03

LLC

33758-4929

[Space Above This Line For Recording Data]
234876

DEED OF TRUST
MIN: 1000815-0000234876-0

DEFINITIONS

Words used in multiple sections of this document are defined below and other words are defined in
Sections 3,11,13.18,20 and 21. Certain rules regarding the usage of words used in this document
are also provided in Section 16.
(A) “Security Instrument” means this document, which is dated April 28
2 0 0 3 , together with all Riders to this document.
(B) “Borrower” is emma m horn, a married woman ooinhj by her sfojse honest f hcrn
tenants by entirety

IHPFDSURE*
RECORDING FEE

Borrower is the trustor under this Security Instrument.
UNIVERSAL AMERICAN MORTGAGE COMPANY, LLC
(C) “Lender” is
Lender is a A FLORIDA LIMITED LIABILITY COMPANY organized and existing under the laws of
. Lender’s address is
THE STATE OF FLORIDA
P.O.

BOX

4929,

(D)“Trustee” is

CLEARWATER,

FL 33758-4929

mary m hargreaves

(E) “ MERS” is Mortgage Electronic Registration Systems, Inc. MERS is a separate
corporation that is acting solely as a nominee for Lender and Lender’s successors and assigns.
MERS is the beneficiary under this Security Instrument. MERS is organized and existing
under the laws of Delaware, and has an address and telephone number of P.O. Box 2026. Flint, MI
48501-2026, tel. (888) 679-MERS.
(F) “ Note” means promissory note signed by Borrowers and dated April 28
. The Note states that Borrower owes Lender 3V» Hundred ihcwsand Dollars
2003
and Zero Gents

5.«

28.1
25.T
TOTAL
Rest m Rcrt * 4184!
REP m Blk 4 8451
m 13* 2883
11*10

) plus interest. Borrower has promised to pay this debt
Dollars (U.S.$ 200,000.00
in Regular Periodic Payments and to pay the debt in full not later than May 1, 2033
(G) “ Property” moans the property that Is described below under the heading “ Transfer of
Rights in the Property.”
(H) “ Loan” means the debt evidenced by the Note, plus interest, any prepayment charges and
,<Wm>c duo nndor the Note, and all sums due under this Security Instrument, plus interest.

17358

635

234876

releasing this Security Instrument, but only if the fee is paid to a third party for services rendered
and the charging of the fee is permitted under Applicable Law.
24. Substitute Trustee. Lender, at its option, may from time to time remove Trustee
and appoint a successor trustee to any Trustee appointed hereunder by an instrument reconted in the
city or county in which this Security Instrument is recorded. Without conveyance of the Property,
the successor trustee shall succeed to all the title, power and duties conferred upon Trustee herein
and by Applicable Law.
_, _
...
25. Possession of the Property. Borrower shall have possession of the Property until
Lender has given Borrower notice of default pursuant to Section 22 of this Security Instrument.
BY SIGNING BELOW, Borrower accepts and agrees to the terms and covenants
contained in this Security Instrument and in any Rider(s) executed by Borrower and recorded with

m M HORN

'

i=f-

-

------------------------- [Space Below This Line for Acknowledgment] —
County ss:
STATE OF MARYLAND
JLOO 3
I Hereby Certify, That on this
day of
before me, the subscriber, a Notary Public of the State of Maryland, in and for the County of
, personally appeared emma m horn
known to me or satisfactorily proven to be the person(s) whose name(s) subscribed to the within
instrument and acknowledge that
he/ she
executed the same for the
same purposes therein contained.
I further certify, that on the date and year shown above before me, the siAscriber^personally^
appeared
gww1™"*- Tttf Tii rrmr r *tttht
^|_ dzJLe^J
the agent of the party secured by the foregoing Deed of Trust, and maae oath in due form of law
that the consideration recited in said Deed of Trust is true and bona fide as therein set forth and that
the actual sum of money advanced at the closing transaction by the secured party was paid over and
disbursed by the party or parties secured by the Deed of Trust to the Borrower or to the person
responsible for disbursement of funds in the closing transaction or their respective agent at a time
not later than the execution and deliveiy by the Borrower of this Deed of Trust; and also made oath
e is the agent of the party or parties secured and is duly authorized to make this affidavit.

r^orWM^i

1

pubuc

T

S: my hand and notarial seal.
mission expires:

//e£3 1*1

ifto certify that this instrument was prepared by
f p an y , llc

oneofth

This is to certify that the within instrument has been
prepared by or under the supervision of the

17358

636

EXHIBIT “A”

BEING KNOWN AND DESIGNATED as Lot 14, Block G, in a subdivision known as Glenn
Estates, as per plat thereof recorded among the Land Records of Prince Georges County,
Maryland in Plat Book NLP 154, Plat No. 82.
The improvements thereon being known as 10312 GARSON TERRACE.

Exhibit

'VJL

Application#:
Loan #;

hornwdc:3U76

234876

BORROWERS CERTIFICATIONS
In consideration of
UNIVERSAL AMERICAN MORTGAGE COMPANY, LLC
("Lender") rundinq the
closing of my mortgage loan ('Loan") and the closing agent disbursing such funds, the underslqned
Borrower(s) hereby certify to the Lender and agree that the following certifications, aqreements and
covenants are true and accurate as of the date of the loan.
OCCUPANCY CERTIFICATION: ln the event the Lender closes the Loan as if the underlyinq
property is occupied as my primary residence, this is to certify that I now occupy or intend to occuov
said property as my primary residence within 60 days of the closing of the Loan.
My failure to occupy said property as certified above shall constitute default under the terms of the
Loan and in case of such default, I must immediately, upon demand by the Lender, pay in full the
balance of the Loan and any other amount to which Lender is entitled under the terms of the Loan.
INCOM E CERTI FI CAT! ON: This is to certify that I am currently employed and my earnings have not
changed from that as shown on the loan application. I have not received any notice or have any
knowledge of any pending layoff or termination from my current employment. My outstandinq
provided'to thc^me[jan^ mar'^a* status arc substantially the same as reported on the loan application
SECONDARY FINANCING CERTIFICATION: This is to certify that there is no secondary mortgage
financing, other than as previously disclosed to the Lender on the loan application, for the closinq of
my Loan; and if a cash down payment is required to close this Loan, it is derived from funds as set forth
in my loan application.
COM
PL...
IANCE...........
CERTI FI CATI ON: 1 a9ree- uPon request by the Lender, to immediately and fully
„
cooperate, adjust, initial, correct, execute, re-execute, reaffirm and redeliver any and all loan
processing and closing documents, including but not limited to, notes, mortgages, deeds of trust
deeds, affidavits, closing statements, and any underwriting documents, if such documents are deemed
necessary or desirable, in the sole discretion of the Lender, in order to consummate the Loan, perfect
Lender s security interest in the property securing the Loan and/or enable the Lender to sell convey
or obtain mortgage insurance/guaranty for the Loan.

<

PRIVATE M ORTGAGE INSURANCE CERTI FI CATI ON: I hereby acknowledge and agree that the
financing, nonconforming Loans and certain other Loans specified by its investors and, if so required
as a condition by the Lender for making my Loan, I understand and agree to purchase of private
mortgage insurance coverage, t understand that 1 may request, under appropriate circumstances the
cancellation of such private mortgage insurance. I further understand that the request for such
cancellation must be made to the investor/servicer of my Loan and the circumstances, under which
the private mortgage insurance may be cancelled, is determined solely at the discretion of this

DECLARATION OF ACCEPTANCE CERTI FI CATI ON: If the property securing my Loan is new
construction, this is to certify that I along with the builder of the property or his designated
representative have inspected the residential property on
and
without any exceptions, I accept the property as to condition of the house, other improvements
including decorations, fixtures, and equipment; and the property is suitable and ready for use as my

INDEMNITY CERTI FI CATI OKI

The Borrower(s) certify, agree and covenant that this Loan and its related documentation comply and
conform in all respects to the Lender’s requirements and acknowledge the Lender is relying on the
certifications, agreements and covenants contained herein in closing the Loan. The Lender shall have
the right to bring suit in a court of law against the Borrower® to enforce the obligations of the
Borrower® under any or alt of these certifications, agreements, and covenants. In the event any such
suit is brought by the Lender, the Lender shall be entitled to recover all of Its damages, costs and
expenses relating thereto including its reasonable attorney's fees and expenses.

B-KA M BORN

Dace

Exhibit

t

Borrower

Certificati one

04/16/02

i;

ATLANTIC BONDING COMA ANY, INC.
1726 REISTERSTOWN ROAD / SUITE 212 / HILTON PLAZA / BALTIMORE, MARYLAND 21208

’* {'
li

Vi
TRUSTEES, MORTGAGEES ATTORNEYS' FORECLOSURE BOND
KNOW ALL MEN EY THESE FRESENTS:
CASE NO. CAEF18-01811
Bond Ho. 166014
That we, James E. Clarke, Hugh J. Green, Shannon Menapace,
Christine M. Drexel, Brian Thomas, Substitute Trustees
as Principal(s), and ATLANTIC BONDING COMPANY. INC., a Maryland corporation, as surety, authorized
do business in the State of Maryland, are firmly hound unto the State of Maryland, in the full and just sum of
+ * * twenty-five thousand
and 00/100 dollars •tr + it
($ 25000.00
), current money, to be paid to
the State of Maryland, or its certain attorney; to which payment well and truly to be made and done, we bind
ourselves, each of us, our and each of our Heirs Successors and Assigns, Executors and Administrators, jointly
and severally, firmly by these presents. Sealed with our seals, and dated 02/01/18
WHEF.EAS the above Principal (s) mentioned in the proceedings in the case of
James E. Clarke, et.al., Substitute Trustees
vs. E&E Family Trust and the Estate of Emma H. Horn as Surviving Tenant by the Entirety of Ernest F
Horn
now'pending in the Circuit Court for Prince George's County
by virtue of the power contained in a Deed of
Trust or Mortgage or by virtue of a decree of the Honorable Judge of the said Court is/are about to sell
10312 Garson Terrace, Lanham, MD 20706
in accordance with said deed, mortgage or decree. Case No. CAEF18-01811
NOW THE CONDITION OF THE ABOVE OBLIGATION IS SUCH that if the above bounden Principal (s)
do(es) and shall well and faithfully perform the trust reposed in him/them by said Deed of Trust
or that may be reposed in him/them by ar.y future decree or order in the premises, then the above obligation
to be void; otherwise tq^ie and remain in full force and virtue.* Jaw.

9

<k
(Seal)

Brian Thomas, /Substiftute Trustee

Shannon Menapace, Substitute Trustee

Clncfstirie M. Drexel, Suns"
ATLANTIC BONDING COMP,

as

a.

'Sv56
Zk

, IN/.

C<

<5
!&fE

By:
Nancy

[g, Vice President

STATE OF MARYLAND, Baltimore County, set:
KNOW ALL MEN BY THESE PRESENTS: That the ATLANTIC BONDING COMPANY, INC., a Corporation of the State of
Maryland, does hereby appoint Nancy L. Oring its attorney-in-fact to make, execute and deliver on its behalf,
as surety, all bonds of any kind, character and description that are or may be required to be filed in'
Courts of Maryland, and it does hereby declare that all such bends signed and executed by its said
attorney-in-fact shall be as binding on it as if they had been duly executed by its propert officers. k
power shall remain in full force and effect until duly revoked and written notice thereof given.
.0
Witness the seal of said ATLANTIC BONDING COMPANY, INC. duly affixed by its President and attested
its Assistant Secretary and dated 02/01/18
1
Witness As to

C,O

ATLANTIC BONDING COMPANY, INC.

f (SEALING

By:
I HEREBY CERTIFY that the above, is a correct and true copy of ^h^^rigin;

power of attorney.

• ••

'=0'SCfW>°)

F
v

- Assistant Secretary

234876

NOTE
April

28

2 0 03

GARSON

1000815-0000234876-0

LANHAM

[Dale]
10312

MIN:

MD

[City]
TERRACE.LANHAM,MD

[State]

20706

[Property Address]
1. BORROWERS PROMISE TO PAY
In return for a loan that I have received, I promise to pay U.S. $ 200,000.00
(this
amount is called Principal), plus interest, to the order of the Lender. The Lender is UNIVERSAL AMERICAN
MORTGAGE COMPANY, LLC, A FLORIDA LIMITED LIABILITY COMPANY
1 will make all payments under this Note in the form of cash, check or money order.
I understand that the Lender may transfer this Note. The Lender or anyone who takes this Note by
transfer and who is entitled to receive payments under this Note is called the Note Holder.
2. INTEREST
Interest will be charged on unpaid principal until the full amount of Principal has been paid. I will
pay interest at a yearly rate of s . 5 0 0 0
%.
The interest rate required by this Section 2 is the rate I will pay both before and after any default
described in Section 6(B) of this Note.
3. PAYMENTS
(A) Time and Place of Payments
I will pay principal and interest by making a payment every month.
I will make my monthly payment on the 1st
day of each month beginning on
June 1
2 00 3
. I will make these payments every month until I have
paid all of the principal and interest and any other charges described below that I may owe under this Note.
Each monthly payment will be applied as of its scheduled due dale and will be applied to Interest before
Principal. If, on
May 1
. still owe amounts under this Note. I will pay those
2033
amounts in full on that date, which is called the Maturity Date.
I will make my monthly payments at
700

NW

107

AVENUE,

SUITE

300

MIAMI,

FL

33172

or at a different place If required by the Note Holder.
(B) Amount of Monthly Payments
My monthly payment will be in the amount of U.S. $

1,135.58

4. BORROWERS RIGHT TO PREPAY
I have the right (0 make payments of Principal at any lime before they are due. A payment of
Principal only is known as a Prepayment. When I make a Prepayment, I will tell the Note Holder in
writing that I am doing so. I may not designate a payment as a Prepayment if I have not made all the
monthly payments due under the Note.
I may make a full Prepayment or partial Prepayments without paying a Prepayment charge. The
Note Holder will use my Prepayments to reduce the amount of Principal that I owe under this Note.
However, the Note Holder may apply my Prepayment to the accrued and unpaid interest on the Prepayment
amount, before applying my Prepayment to reduce the Principal amount of the Note. If I make a partial
Prepayment, there will be no changes in the due date or in the amount of my monthly payment unless the
Note Holder agrees in writing to (hose clianges.
5. LOAN CHARGES
If a law, which applies to this loan and which sets maximum loan charges, is finally interpreted so
that the interest or other loan charges collected or to be collected in connection with this loan exceed the
permitted limits, then: (i) any such loan charge shall be reduced by the amount necessaiy to reduce the
charge to the permitted limit; and (ii) any sums already collected from me which exceeded permitted limits
will be refunded to me. The Note Holder may choose to make this refund by reducing the Principal I owe
under this Note or by making a direct payment to me. If a refund reduces Principal, the reduction will be
treated as a partial Prepayment.

MULTISTATE FIXED RATE NOTE-Single Family -Fannie Mac/Freddie Mac UNIFORM INSTRUMENT
(page 1 of 3 pages)

Exhibit

Gr

FORM 3200 I/OI

234876

6. BORROWERS FAILURE TO PAY AS REQUIRED
(A) Late Charge for Overdue Payments
If the Note Holder has not received the full amount of any monthly payment by (he end of
15
calendar days after (he date it is due. I will pay a late charge to the Note Holder. The amount of
the charge will be s . o
% of my overdue payment of principal and interest. I will pay this late
charge promptly but only once on each late payment.
(B) Default
If I do not pay (he full amount of each monthly payment on the date it is due, I will be in default
(C) Notice of Default
If I am in default, the Note Holder may send me a written notice telling me that if I do not pay the
overdue amount by a certain date, the Note Holder may require me to pay immediately the full amount of
Principal which lias not been paid and all (lie interest that I owe on (hat amount. That date must be at least
30 days after the date on which the notice is mailed to me or delivered by other means.
(D) No Waiver By Note Holder
Even if, at a time when I-am in default, the Note Holder does not require me to pay immediately in
full as described above, the Note Holder will still have the right to do so if I am in default at a later time
(E) Payment of Note Holders Costs and Exp enscs
If the Note Holder has required me to pay immediately in full as described above, the Note Holder
will have the right to be paid back by me for all of its costs and expenses in enforcing (his Note to the
7Xt<GIVTNG°OFiNOTICE,*iCa^e *aW ^10se exPenses include, for example, reasonable attorneys fees.
Unless applicable law requires a different method, any notice (hat must be given to me under this
Note will be given by delivering it or by mailing it by first class mail to me at the Property Address above
or at a different address if I give (he Note Holder a notice of my different address.
Any notice that must be given to (lie Note Holder under this Note will be given by delivering it or
by mading it by first class mail to (lie Note Holder at (lie address stated in Section 3(A) above or at a
different address if I am given a notice of (hat different address.
8. OBLIGATIONS OF PERSONS UNDER THIS NOTE
If more than one person signs this Note, eacli person is fully and personally obligated to keep all
of the promises made in (his Note, including the promise to pay the full amount owed. Any person who is a
guarantor, surety or endorser of this Note is also obligated to do these things. Any person who takes over
these obligations, including the obligations of a guarantor, surety or endorser of this Note, is also obligated
to keep all of the promises made in this Note. The Note Holder may enforce its rights under this Note
against eacli person individually or against all of us together. This means that any one of us may be
required to pay all of (he amounts owed under this Note
9. WAIVERS
I and any other person who has obligations under this Note waive (lie rights of Presentment and
Notice of Dishonor. Presentment means the right to require the Note Holder to demand payment of
amounts due. Notice of Dishonor means (he right to require the Note Holder to give notice to other
persons (hat amounts due have not been paid.
10. UNIFORM SECURED NOTE
This Note is a uniform instrument with limited variations in some jurisdictions. In addition to (lie
protections given to the Note Holder under this Note, a Mortgage, Deed of Trust, or Security Deed (the
Security Instrument), dated the same date as this Note, protects the Note Holder from possible losses
which might result if I do not keep the promises which 1 make in (his Note. That Security Instrument
describes how and under what conditions I may be required to make immediate payment in full of all
amounts I owe under this Note. Some of those conditions are described as follows:
If all or any part of the Property or any Interest in the Properly Is sold or
transferred (or if Borrower is not a natural person and a beneficial interest in Borrower is
sold or transferred) without Lenders prior written consent, Lender may require
immediate payment in full of all sums secured by (his Security Instrument. However, this
option shall not be exercised by Lender if such exercise is prohibited by Applicable law.

MULTISTATS; FIXED RATE NOTE-Singlc Family -Fannie Mac/Frcddic Mac UNIFORM INSTRUMENT
(page 2 of 3 pages)

FORM 3200 1/01

234876

If Lender exercises tills option, Lender shall give Borrower notice of
acceleration. The notice shall provide a period of not less than 30 days from the date the
notice is given in accordance with Section 15 within which Borrower must pay all sums
secured by this Security Instrument. If Borrower fails to pay these sums prior to (he
expiration of this period. Lender may invoke any remedies permitted by this Security
Instrument without further notice or demand on Borrower.
WITNESS THE HAND(S) AND SEAL(S) OF THE UNDERSIGNED

3.\
EM4A M HORN .

Cate

[Sign Original Only]

MULTISTATE FIXED RATE NOTE-Single Family -Fannie Mac/Freddic Mac UNIFORM INSTRUMENT ' FORM 3200 1/01
(page 3 of 3 pages)

37060

608

File No. 03-7149-03
Property Tax ID# 14 156701

^!rr|x of th''
Cirrmi Court
2015 JUS -3 PM |: 02

THIS DEED

PR GEO CO M0 #86
MADE this [Z day of May, 2015 and between, EMMA HORN and TOI HORN,
tenants by the entirety, parties of the first part, (Grantors) and E&E FAMILY TRUST, fee
simple, party of the second part, (Grantee).
H3

WITNESSETH, that in consideration of the sum of $0 Dollars and other good and t
valuable considerations the said party of the first part does grant and convey to
the second part in fee simple, all that property situate, lying and being in Prince
’*
.
County, State of Maryland, Liber 17358 at folio 617 and being described as foll§J^jf>i
: say:

- •157671
01

PG DEED TAX
HD DEED TAX

BEING KNOWN AND DESIGNATED as Lot 14, Block G, in subdittfchS land
known as Glenn Estates as per plat thereof recorded among the Land Recof:fis2$|*riffce
George’s County, Maryland in Plat Book NLP 154, Plat No. 82.
'PG TRUST #3

.(
.<
.1

SUBJECT to covenants, easements and restrictions of record.
AND the said parties of the first part covenant that they will warrant specially the
property hereby conveyed; and they will execute such further assurances of said 1^1 pg
Jpe
requisite.
RECORDING FEE

48.88
20.80
I0ML
68.09
Rest PG85 Reft t 88932
S-JH m
Bill # 478
Jun 83; 2815
12:58 pi

H

.1

AGRI TAX
TOTAL

Together with the buildings and improvements thereupon erected, made or being; and all
and every, the rights, alleys, ways, privileges, appurtenances and advantages to belonging or
anywise appertaining.

Exhibit

.1

.<

The amount of “total payment” per Section 10-912(b) (2) Tax General Article
Annotated Code of Maryland is $ 0

STATE OF MARYLAND, COUNTY OF PRINCE GEORGE’S, to wit:

.i

I1D TRUST S3

UST i4
The improvements thereon being known as 10312 GARSON TEKr|^|^UST
*4

Emma Horn

.1
.1

37060

60S

I HEREBY CERTIFY that on this YL day of May, 2015, before me, the subscriber, a Notary
Public of the State aforesaid, personally appeared Emma Horn, known to me (or satisfactorily
proven) to be the person whose name is subscribed to the within instrument, and acknowledged
the foregoing Deed to be her act.
IN WITNESS WHEREOF, I hereunto set my hand and official seal.

s ; _

2

my

°\ |

j COMMISSION :
= -o\ . expires /

I

I

A&\ 1
Public
My Commission Expires:

.(SEAL)

ju 1
Toi Horn

STATE OF MARYLAND, COUNTY OF PRINCE GEORGE’S, to wit:
I HEREBY CERTIFY that on this {*2. day of May, 2015, before me, the subscriber, a Notary
Public of the State aforesaid, personally appeared Toi Horn, known to me (or satisfactorily
proven) to be the person whose name is subscribed to the within instrument, and acknowledged
the foregoing Deed to be her act.
IN WITNESS WHEREOF, I hereunto set my hand and official seal.

f -*r MY i\ \
I j, “SBS" U

ML..:

PubTf
My Commission Expires: 2> /izj 2.0 n
foti

.(SEAL)

Eddbit

Hi

